<html>
<title> - IMPROVING FEDERAL EMPLOYMENT OF PEOPLE WITH DISABILITIES</title>
<body><pre>[Senate Hearing 112-46]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-46
 
        IMPROVING FEDERAL EMPLOYMENT OF PEOPLE WITH DISABILITIES

=======================================================================



                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 16, 2011

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
66-621                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           RON JOHNSON, Wisconsin
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JOHN ENSIGN, Nevada

                     Lisa M. Powell, Staff Director
                       Christine S. Khim, Counsel
             Jennifer A. Hemingway, Minority Staff Director
                      Aaron H. Woolf, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1

                               WITNESSES
                      Wednesday, February 16, 2010

Yvonne Jones, Director, Strategic Issues, U.S. Government 
  Accountability Office..........................................     2
Hon. Christine M. Griffin, Deputy Director, U.S. Office of 
  Personnel Management...........................................     4
Hon. Kathleen Martinez, Assistant Secretary of Labor for 
  Disability Employment Policy...................................     6
Hon. Chai Feldblum, Commissioner, U.S. Equal Employment 
  Opportunity Commission.........................................     7

                     Alphabetical List of Witnesses

Feldblum, Hon. Chai:
    Testimony....................................................     7
    Prepared statement...........................................    54
Griffin, Hon. Christine M.:
    Testimony....................................................     4
    Prepared statement...........................................    38
Jones, Yvonne:
    Testimony....................................................     2
    Prepared statement...........................................    25
Martinez, Hon. Kathleen:
    Testimony....................................................     6
    Prepared statement...........................................    43

                                APPENDIX

Background.......................................................    67
Statement from Dinah B. Cohen, Director, Computer/Electronic 
  Accommodations Program, Office of the Assistant Secretary of 
  Defense for Health Affairs.....................................    72
Questions and responses submitted for the record from:
    Ms. Jones....................................................    86
    Ms. Griffin..................................................    89
    Ms. Martinez.................................................    92
    Ms. Feldblum.................................................    96
    Ms. Cohen....................................................    98


        IMPROVING FEDERAL EMPLOYMENT OF PEOPLE WITH DISABILITIES

                              ----------                              


                      WEDNESDAY, FEBRUARY 16, 2011

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:36 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order. Aloha and 
thank you all for being here today as the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia meets to examine what the Federal 
Government is doing to improve hiring and accommodations for 
people with disabilities in Federal Government.
    As the Nation's largest employer, the Federal Government 
has an opportunity and a responsibility to be the model 
employer to the country. We have taken many steps toward that 
goal, but we have so much further to go. Despite great efforts 
by our witnesses here today and the agencies they represent, 
the number and percentage of people with disabilities employed 
in the Federal workforce has declined over the past two 
decades. Even at their peak, these numbers were not acceptable. 
But now, people with targeted disabilities make up less than 1 
percent of our Federal workforce.
    Last year, we celebrated the 20th anniversary of the 
Americans with Disabilities Act (ADA). This landmark civil 
rights legislation continues to serve the millions of 
individuals with disabilities in our country. These individuals 
are now better able to participate in society because the ADA 
helped remove barriers in employment, transportation, public 
services, telecommunications, and public accommodations. 
Despite ADA requirements of equal employment opportunities and 
reasonable accommodations, people with disabilities continue to 
face significant barriers to employment. The Federal Government 
must work to reverse this trend by setting an example of 
successfully hiring and accommodating people with disabilities.
    Former Senator Voinovich and I requested that the 
Government Accountability Office (GAO) study the best practices 
that agencies could use to increase the employment of people 
with disabilities. Last summer, GAO held a forum with experts 
and advocates from across the disability community. I am glad 
to have Ms. Jones from GAO here today to discuss their report 
on that forum.
    I have been pleased to see this Administration's renewed 
commitment to this issue. The Executive Order (EO) President 
Obama issued last summer lays the groundwork for agencies to 
improve their efforts. I am eager to hear from our witnesses 
today about the progress they have made as well as what more 
needs to be done.
    Each day, disabled veterans return from service overseas 
and they must be a central part of this effort. Whether 
recently injured in Iraq or Afghanistan or disabled in prior 
service, these veterans have demonstrated enormous commitment 
to this Nation and we have a responsibility to provide them 
opportunities to continue their service as civilian employees.
    The Federal Government has started to take some positive 
steps toward improving employment opportunities for people with 
disabilities, but we still have a long way to go. I am pleased 
that we are able to bring attention to this important issue and 
I look forward to hearing from each of our witnesses and to 
continuing to work with them on these issues. So thank you all 
again for being here today.
    I want to welcome our panel of witnesses to this 
Subcommittee and this hearing: Ms. Yvonne Jones, Director of 
Strategic Issues at the Government Accountability Office; Ms. 
Christine Griffin, Deputy Director of the Office of Personnel 
Management; Ms. Kathleen Martinez, Assistant Secretary of Labor 
for Disability Employment Policy; and Chai Feldblum, 
Commissioner at the Equal Employment Opportunity Commission.
    It is the custom of this Subcommittee to swear in all 
witnesses, so will you please raise your right hand. Do you 
swear that the testimony you are about to give before the 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Ms. Jones. I do.
    Ms. Griffin. I do.
    Ms. Martinez. I do.
    Ms. Feldblum. I do.
    Senator Akaka. Let it be noted for the record that the 
witnesses answered in the affirmative.
    Let me also remind all of you that although your oral 
statement is limited to 5 minutes, your full written statements 
will be included in the record.
    Ms. Jones, will you please proceed with your statement.

TESTIMONY OF YVONNE JONES,\1\ DIRECTOR, STRATEGIC ISSUES, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Jones. Thank you, Mr. Chairman. Mr. Chairman, I am 
pleased to be here today to discuss possible strategies for 
improving the rate of Federal employment of individuals with 
disabilities. My testimony today is based on our October 2010 
report that discussed barriers to the employment of people with 
disabilities in the Federal workforce and leading practices 
that could be used to overcome these barriers.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Jones appears in the appendix on 
page 25.
---------------------------------------------------------------------------
    To identify these barriers and leading practices, we 
solicited the views of a wide range of knowledgeable 
individuals through a survey and a forum, which took place in 
July 2010. Federal employees and applicants for employment with 
disabilities are protected from discrimination by the 
Rehabilitation Act of 1973. Under this Act, as amended, a 
person is considered to be disabled if the individual has a 
physical or mental impairment that substantially limits one or 
more major life activities, has a record of such impairment, or 
is regarded as having such impairment.
    The Rehabilitation Act also requires that Federal agencies 
take proactive steps to provide equal opportunity to qualified 
individuals with disabilities in all aspects of Federal 
employment. Federal law also provides special hiring 
authorities for people with disabilities, including Schedule A 
excepted service hiring authority. However, even with existing 
Federal provisions, concerns have been raised about the low 
level of employment of people with disabilities in the Federal 
workforce.
    In brief, Mr. Chairman, participants at the forum said that 
the most significant barrier keeping people with disabilities 
from the workplace is attitudinal. Attitudinal barriers can 
include bias against and low expectations for people with 
disabilities, a focus on disabilities rather than on their 
abilities. According to participants, there is a fundamental 
need to change the attitudes of hiring managers, supervisors, 
coworkers, and prospective employees, and that cultural change 
within agencies is critical to this effort.
    Participants acknowledge that there are many existing 
Federal programs and policies to protect the employment rights 
of people with disabilities but stated that efforts to protect 
these rights will only make piecemeal progress until agencies 
change their workplace cultures. Participants identified eight 
leading practices generated by the survey that agencies could 
implement to mitigate these barriers and help the Federal 
Government become a model employer for people with 
disabilities. Participants emphasized that these practices 
would not work in isolation, but instead need to reinforce each 
other. Here are the practices.
    Top leadership commitment is key to implementing and 
sustaining improvements in the employment of individuals with 
disabilities.
    Accountability is critical to success.
    Regularly surveying the workforce on disabilities issues 
provides agencies with important information on potential 
barriers.
    Better coordination within and across agencies could 
improve employment outcomes for employees with disabilities.
    Training for staff at all levels can disseminate leading 
practices throughout an agency.
    Career development opportunities inclusive of people with 
disabilities can facilitate advancement and increase retention.
    A flexible work environment can increase and enhance 
employment opportunities for individuals with disabilities.
    And centralizing funding within an agency can help ensure 
that reasonable accommodations are provided.
    Mr. Chairman, this concludes my statement. I would be 
pleased to respond to any questions that you may have.
    Senator Akaka. Thank you very much, Ms. Jones, for your 
statement.
    Ms. Griffin, will you please proceed with your statement.

  TESTIMONY OF HON. CHRISTINE M. GRIFFIN,\1\ DEPUTY DIRECTOR, 
              U.S. OFFICE OF PERSONNEL MANAGEMENT

    Ms. Griffin. Chairman Akaka, thank you for the opportunity 
to testify today regarding the U.S. Office of Personnel 
Management's (OPM's) role in improving Federal employment for 
people with disabilities.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Griffin appears in the appendix 
on page 38.
---------------------------------------------------------------------------
    Improving the number of people with disabilities within the 
Federal Government has been a major priority of this 
Administration and it has also been a personal goal of mine for 
the last 5 years, first as a Commissioner at the Equal 
Employment Opportunity Commission (EEOC) and now currently as 
Deputy Director of OPM. Securing a job with the Federal 
Government has been a challenge for people with disabilities 
regardless of their education level, experience, skills, or 
abilities. In fact, there has not been much progress over the 
past 38 years, even though the Rehabilitation Act of 1973 
requires Federal agencies to have an affirmative employment 
program for the hiring, placement, and advancement of people 
with disabilities.
    The unemployment rate for people with disabilities in 
January 2011 was 13.6 percent. However, this number is 
deceiving. It only refers to those who are currently seeking 
employment. Only 27 percent of working age people with 
disabilities are employed, and there are currently an estimated 
10 million working age people with disabilities who are not 
working and are not seeking work, and most of them probably 
have in the past and have not been able to find it.
    Disability hiring is a critical part of the Obama 
Administration's comprehensive personnel policy reform agenda. 
The leadership by this Administration, including OPM Director 
John Berry, I think, gives me and many others hope that the 
tools are going to be put in place to ensure that applicants 
and employees with disabilities have the opportunity to add 
significant contributions to our government.
    Mr. Chairman, combining your leadership with the 
Administration's leadership, I am convinced this is the year 
that we will actually see an increase in Federal employment for 
people with disabilities.
    President Obama has already demonstrated top leadership 
commitment by signing the Executive Order on July 26, 2010, 
which was the 20th anniversary of the signing of the Americans 
with Disabilities Act. The President asked agencies to increase 
hiring of people with disabilities in the Federal Government 
with a goal of 100,000 people over the next 5 years. He asked 
OPM to develop, in collaboration with other agencies, the model 
recruitment and hiring strategies. We have done that and 
disseminated that to the agencies. Agencies now have to develop 
plans with goals on the numbers of people with disabilities and 
those specifically with targeted disabilities that they are 
going to hire, and those plans are due to us by March 8.
    There are also return-to-work provisions, which I am sure 
my colleague, Ms. Martinez, is going to go over because that is 
a piece that the Department of Labor (DOL) is responsible for.
    And I think most importantly is a piece regarding 
accountability. We have asked senior officials to be 
designated--some are from the Senior Executive Service (SES)--
in every agency who will be responsible for the agency's 
progress. Agency hiring managers, human resource personnel, as 
well as agency leaders must be held accountable for ensuring 
that agency staff are working diligently to achieve the agency 
goals. Goals should be evaluated on a regular basis, either 
monthly or at a minimum quarterly, to ensure that the 
strategies being used are successful. Examining success on an 
annual basis is not an acceptable evaluation.
    Increased use of Schedule A, a hiring authority that Ms. 
Jones described, is an expedient way for Federal agencies to 
hire people with disabilities into the Federal Government. OPM 
has already created two very short creative online training 
courses for Federal agencies as well as applicants.
    Another useful tool that is really proving to be successful 
was developed by OPM in collaboration with the Chief Human 
Capital Officer Council (CHCOC) and it is a list of people with 
disabilities covered by Schedule A who already are qualified, 
deemed to be qualified to fill a variety of entry-level 
positions that the Council members identified as ones which all 
agencies have a constant demand for.
    OPM, in collaboration with my colleagues here at this table 
and the Computer/Electronic Accommodation Program (CAP) at the 
Department of Defense (DOD) and our colleagues at the 
Department of Education (DOE) Rehabilitation Services 
Administration (RSA) are all working together. We have provided 
multiple trainings to Federal agencies. We will do four more of 
those trainings over the next couple of weeks.
    But the bottom line is, the Federal Government has to make 
significant improvements in hiring and retaining employees with 
disabilities before it becomes a model employer. Attitudinal 
barrier, as you have heard, continue to be the biggest 
challenge that people with disabilities are facing when they 
seek employment. And maybe this is not unique to the Federal 
Government, but in my experience, the only way to actually get 
rid of attitudinal barriers is to hire people with 
disabilities. That is it. That is the bottom line.
    So we look forward to working with you on this and we 
appreciate your leadership and I would be happy to answer any 
questions that you have.
    Senator Akaka. Thank you very much, Ms. Griffin.
    Ms. Martinez, you may proceed with your statement.

TESTIMONY OF HON. KATHLEEN MARTINEZ,\1\ ASSISTANT SECRETARY OF 
             LABOR FOR DISABILITY EMPLOYMENT POLICY

    Ms. Martinez. Thank you very much, and I would like to say 
aloha and mahalo----
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Martinez appears in the appendix 
on page 43.
---------------------------------------------------------------------------
    Senator Akaka. Aloha.
    Ms. Martinez [continuing]. For having this hearing, and I 
want to thank you for the opportunity to testify today and 
discuss the efforts of the U.S. Department of Labor and its 
Office of Disability Employment Policy (ODEP), to improve the 
hiring of folks with disabilities in the Federal Government.
    At the Department of Labor, Secretary Hilda Solis and ODEP 
are wholly committed to the goal of improving employment 
opportunities and outcomes for people with disabilities, no 
matter whether it is in what sector, be it public, private, or 
nonprofit.
    I know this hearing is specifically focused on Federal 
hiring practices, and one of my guiding beliefs in leading ODEP 
is that the Federal Government, as the Nation's largest 
employer, as you said, can do a lot more to be a model and an 
example for everyone with regard to hiring folks with 
disabilities.
    I am going to skip, because otherwise we might be here for 
a while.
    At ODEP, we embrace and do all we can to encourage this 
trend. We were established in 2000 as an office within the 
Department of Labor to bring a committed focus to disability 
employment policy and to advance the employment of people with 
disabilities. I strongly believe in this mission and its 
importance to our economic vitality. Each person that finds a 
job strengthens the U.S. economy and our Nation's financial 
future. Implementing sound and innovative policies that improve 
employment opportunities for people with disabilities is 
especially important because this population continues to be 
markedly under-represented in the United States workforce.
    The most recent report issued this month by the Department 
of Labor's Bureau of Labor Statistics shows that only 31.6 
percent of working age people, 16 to 64, with disabilities are 
actually in the American labor force. In comparison, for people 
representing no disabilities, the participation rate is 76.4 
percent. Closing this gap would likely yield savings for the 
government as it would mean that millions of Americans who are 
currently disconnected from the economy would begin earning 
income, paying taxes, and reducing their dependence on public 
benefits.
    The President demonstrated his personal commitment to this 
goal when on the 20th anniversary of the Americans with 
Disabilities Act in July 2010 he signed the Executive Order, 
and I think we are pretty familiar with that. Although ODEP was 
one of several agencies to provide input into the development 
of this Executive Order, we appreciate that its actions take--
that it is the actions taken in response to this order that 
really matter the most.
    In addition to helping agencies implement the Executive 
Order, ODEP also provides information and technical assistance 
through several different methods and mediums that can be used 
to assist Federal agencies in becoming model employers. One of 
the areas that we have studied extensively is the concept of 
accommodations. We all know we all require some type of 
productivity tool to work and for folks to perform their jobs, 
whether it is lights, whether it is chairs, whether it is pens 
and pencils. Most accommodations for folks with disabilities 
are not cost prohibitive, especially when taking into account 
the increased productivity that results from their use. In 
fact, data suggests that more than half of all accommodations 
cost nothing, and most employers actually report financial 
benefits from providing accommodations as the cost of training 
new employees goes down and worker productivity goes up.
    I am going to skip. It is just going to take me a little 
longer here because of the Braille.
    In addition to accommodations, we also provide a searchable 
online database of recruitment resources as well as a call 
center through our Employer Technical Assistance Center and the 
Employer Assistance Resource Network (EARN). This resource is 
available to all employers, including Federal employers, at 
www.askearn.org, and I encourage all Federal managers and 
supervisors to take a look at it.
    ODEP also cosponsors the Workforce Recruitment Program 
(WRP), with the Department of Defense. The Workforce 
Recruitment Program is a recruitment and referral program that 
connects Federal managers and supervisors with post-secondary 
students and recent graduates with disabilities who are eager 
to prove their abilities in the workplace through summer 
internships or permanent jobs. Since 1995, the WRP has provided 
Federal employment opportunities to over 5,500 students.
    Improving Federal employment outcomes for those of us with 
disabilities holds great potential. As a model employer, the 
Federal Government can be a catalyst for raising the labor 
participation rate for those of us with disabilities and 
thereby add to the economic dynamism that has made our Nation 
special from its earliest days. ODEP is proud to play a role in 
this effort and is proud of the commitment this Administration 
has shown to this goal.
    And with that, I would be happy to answer any questions. 
Thank you.
    Senator Akaka. Thank you very much, Ms. Martinez.
    Ms. Feldblum, you may proceed with your statement.

 TESTIMONY OF HON. CHAI FELDBLUM,\1\ COMMISSIONER, U.S. EQUAL 
               EMPLOYMENT OPPORTUNITY COMMISSION

    Ms. Feldblum. Thank you, Chairman Akaka, for holding this 
hearing. My name is Chai Feldblum. I am one of five 
Commissioners who make up the bipartisan Equal Employment 
Opportunity Commission and I thank Chair Jacqueline Berrien for 
asking me to represent the Commission at this hearing.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Feldblum appears in the appendix 
on page 54.
---------------------------------------------------------------------------
    It was thrilling on July 26, 2010, and indeed it is 
thrilling today, to read President Obama's Executive Order 
13548 and to imagine that the challenge of that Executive Order 
would actually be fulfilled--that in 5 years, there would be an 
additional 100,000 people with disabilities employed in the 
Federal workforce. But as we all know, those clarion calls have 
been made before, including in an Executive Order issued in 
2000 calling for the hiring of 100,000 people with disabilities 
within 5 years, and they have not succeeded.
    So our challenge now in 2011 is to actually succeed. The 
time for words and clarion calls have come and gone. Now is the 
time for results.
    We are off to a very good start because a great deal of 
thought went into this Executive Order, both in terms of its 
requirements and its many details. And I must say that we have 
Christine Griffin's leadership, among others, to thank for that 
detailed thoughtfulness. But real success will require the full 
engagement of three component actors: Congress, various 
agencies within the Executive Branch, and the workforce itself.
    I start with Congress because the EEOC's authority and 
responsibility regarding the employment of people with 
disabilities in the Federal workforce derives from the 
statutory mandate Congress has given us. That mandate sets out 
our job. Given that fact, Congress must remain engaged with our 
efforts. It must hold our feet to the fire to see if we are 
carrying out our statutory responsibilities and it must ensure 
that we are being given the tools and the authority to carry 
out that mandate.
    With regard to the second component actor, the executive 
agencies, you have arrayed before you several of the relevant 
agencies and part of my optimism that we will actually succeed 
this time comes because of some of the leaders at this table. 
But with regard to the EEOC, as you have heard, EEOC received 
its statutory authority almost 40 years ago in Section 501 of 
the Rehabilitation Act in which Congress told the agencies they 
had to have an affirmative action program plan for the hiring, 
placement, and advancement of people with disabilities. EEOC 
was given authority to review those plans, and in Title 7, 
Section 717, we are given broad authority for making sure that 
equal employment opportunity is being achieved in the Federal 
workforce.
    So in my written testimony, I describe a number of things 
that EEOC is doing to carry out that statutory responsibility. 
I want to highlight two elements here.
    The first is EEOC's Management Directive 715, which is our 
statement to the agencies, our instructions to them of how we 
expect them to carry out Congress's statutory mandate of equal 
employment opportunity. We tell them that they have to 
demonstrate commitment from agency leadership for equal 
employment opportunity and have successful management and 
program accountability. And we do not leave agencies on their 
own with those obligations. We tell them what data we want to 
see. We review that data. We give them multi-year trend 
analyses.
    Here is my key point. Our goal at the EEOC is going to be 
to use the MD-715 process as effectively as possible to bring 
about the results called for in the President's Executive 
Order. There is data that we can collect through those reports. 
There is technical assistance we can offer based on those 
reports that can and should operate synergistically with the 
data that OPM will be collecting and technical assistance OPM 
will be providing through the Executive Order.
    Second, the Committee had asked about the Leadership for 
the Employment of Americans with Disabilities Initiative (LEAD) 
that was started by then-Commissioner Griffin at EEOC, and my 
written testimony describes that. The one point I want to say 
here is that I view the Executive Order as an even more robust 
follow up to the LEAD Initiative. So we at the EEOC are very 
happy to be continuing the training, technical assistance, and 
analysis that started with the LEAD Initiative but now is part 
of this bigger and better effort.
    Third, the final component is the workforce itself, 
including people with disabilities who are just waiting to step 
up and contribute to the workplace. As I note in my written 
testimony, as a person with anxiety disorder that is medicated, 
I am keenly aware of the stereotypes and assumptions that can 
hold people with disabilities back. And as the October 2010 GAO 
report notes, we must change managers' and supervisors' 
assumptions and opinions about disabilities if we are to change 
outcomes.
    Increasing the numbers of people with targeted disabilities 
in the Federal workforce is a great way to begin that task. It 
is hard to continue believing that someone who has a mobility 
impairment, has cerebral palsy, who is deaf or blind, or who 
has a mental illness or an intellectual disability--is 
incapable of being a good employee when you are already working 
next to such a good employee.
    At the same time, while targeted disabilities represent a 
good and essential barometer for progress, and people with 
disabilities must play an important role in shaping efforts to 
determining how those goals for people with targeted 
disabilities can be achieved, I believe we must also make clear 
that we all exist along a spectrum of ability and disability. 
Some of us have impairments that generate a significant amount 
of discrimination, fear, and myths, and some of us have 
impairments that generate less. Some of us do not have 
impairments now, but we will down the road. If we can convince 
supervisors and workers, both in the Federal workforce and 
elsewhere, that there is not a sharp divide between people with 
disabilities, otherwise known as ``them,'' and everyone else in 
the workplace, often known as ``us,'' the better off all of us 
will be.
    Thank you very much, and I look forward to your questions.
    Senator Akaka. Thank you very much for your statement, Ms. 
Feldblum.
    I would like to start with a question to the entire panel. 
Participants at the GAO forum cited attitudes, attitudes such 
as low expectations and bias, as the key barrier to employing 
people with disabilities in the Federal Government. Why do you 
believe this remains such a significant challenge, and what can 
we do to address it? Ms. Jones.
    Ms. Jones. Thank you, Mr. Chairman. We believe it is a 
significant problem because so many of the participants at the 
forum discussed it and because the eight practices that were 
identified at the forum were, in part, derived from what 
participants viewed as attitudinal issues. And the eight 
practices are actions that the participants at the forum 
identified as necessary for changing attitudes.
    For example, leadership, communication, and commitment 
shapes how others in an agency or an organization will deal 
with issues and a second also surveying the workforce was aimed 
at determining what the attitudes or views of a specific 
organization or agency would be and could help suggest ways to 
change attitudes in the agency. Those are a couple of examples 
from the forum. Thank you.
    Senator Akaka. Ms. Griffin.
    Ms. Griffin. Mr. Chairman, I have looked at this for a long 
time in every which way and the bottom line is society still is 
in a place where they think people with disabilities are 
somehow less qualified to work. If you grow up thinking that 
people with disabilities need help, should be pitied, things 
like that, you just are never going to grasp the fact that they 
are just like you and they want to work. So attitudinal bias 
persists society-wide, so it is no surprise that it is in the 
Federal Government, as well.
    And we have done 40 years of this disabilities awareness 
stuff in the Federal Government. At least once a year in 
October, every Federal agency has some little program where 
they bring in someone with a disability or they discuss 
accommodations or they do something to recognize employment 
awareness, but it never results in employment and I am not sure 
that it results in awareness, either.
    So I have actually come to this conclusion, that the only 
way to actually change attitudinal bias is to hire people. Hire 
people with disabilities. They are the ones that actually 
change the attitudes of people who have any type of fear, myth, 
or stereotype in their head. It is only when you are working, 
as Commissioner Feldblum said, ``You are working side by side 
with someone with a disability and they are doing the same job 
you are'' that you finally say, oh, OK. This person--Chris 
Griffin is just like me. Kathy Martinez is just like me. They 
may do their job a little bit differently with an 
accommodation, but they are still doing the same job and they 
are just as capable and they are just as qualified. And that is 
the bottom line. It is actually getting more people with 
disabilities in the workplace that I think will change not only 
the Federal Government, but society's views overall.
    Senator Akaka. Thank you, Ms. Griffin. Ms. Martinez.
    Ms. Martinez. Senator Akaka, I was born blind and when I 
was in grade school, I was mainstreamed and was the only blind 
person in my class. The children in my class, in kindergarten 
through sixth grade, had not ever dealt with a person with a 
disability, so their expectations of me were just like the 
expectations they had of each other.
    As I grew up and kind of learned about the attitudes as 
people grew older and older, I graduated from high school and I 
was a client of the Department of Rehabilitation (DOR) and I 
was placed in a lock factory. My case was closed and the 
rehabilitation counselor considered himself having placed a 
successful employment case. Well, I decided that was not going 
to be my life's work, being a punch press operator in a lock 
factory, and here we are today.
    I think, as Christine said, I heard somebody call it 
contact theory. The more contact you have with somebody, the 
more you know them and the less you fear them. And 
unfortunately, because of thousands of years of systematic 
discrimination, people with disabilities--there is a major fear 
factor that we have to--that we can only address by being a 
part of society.
    And the way that anybody feels productive, the way that 
most people have dignity is through work and pride and 
everything else that work provides. When people see us as 
productive, contributing members of society through our ability 
to contribute--we might not do things the same way as each 
other, but we get the job done--they will value us at a higher 
level. And again, we cannot emphasize enough the best way to 
change attitudes is to hire someone.
    Senator Akaka. Thank you, Ms. Martinez. Ms. Feldblum.
    Ms. Feldblum. Thank you. Let me just put some context to 
what you just heard, because I think you are hearing the same 
thing from all of us. If you imagine someone having four 
candidates in front of them to hire and they all have the basic 
qualification standards, they all went to law school or they 
all have their engineering degree, and three of them look just 
like the person who is doing the hiring and one of them is 
blind, or three of them look just like that person doing the 
hiring and one of them has cerebral palsy and is using a voice 
box to talk--that person doing the hiring is thinking, OK, I 
now have to hire someone, how that person performs is going to 
reflect on me because I have to produce for my boss, no matter 
how many disability awareness programs they have gone to, they 
are going to figure out a reason that it is better not to hire 
the person who is blind or who has cerebral palsy or who is 
using a wheelchair. And they are going to do that because they 
think, I am not going to look as good to my boss because this 
person is not going to produce.
    So what you are hearing is that the only way to change 
attitudes is to actually increase the numbers. And I wrote my 
answer here without having talked to Deputy Director Griffin 
before--because I am convinced, as well, that the only way you 
change that attitude is by forcing people to have that 
experience.
    So the question, then, again, because your second question 
is what can be done, and so I think there are two answers here. 
One is what the Executive Order does, which is to say, we do 
not care how much outreach you do. We want to see your bottom 
line numbers. And the second, it does not do as explicitly, but 
I think the Federal Government can, is to start putting in the 
performance evaluation of that manager, how well have you done 
on diversity hiring, because then that person has a reason to 
actually push himself or herself to think, well, maybe I do 
want to hire this person who is blind or uses this wheelchair.
    The second piece of it, though, is my understanding that it 
is not them and us. That is my point of saying, I am a person 
with a disability. You would not know it unless I come out and 
tell you I have anxiety disorder that is medicated. There are 
thousands of people out there in this country who have anxiety 
disorder and depression and they do not think they are people 
with disabilities. So remember I started by saying three people 
who look like the supervisor and one who does not? Well, some 
of those people--the supervisor him or herself could have a 
disability without knowing it.
    Senator Akaka. Thank you.
    Ms. Griffin, from the Office of Personnel Management, I 
would like to ask a question about the Executive Order. As we 
have discussed, the President issued an Executive Order last 
July which required agencies to develop recruitment and hiring 
strategies for people with disabilities. These plans are due 
next month. Have agencies responded positively to the Executive 
Order and have they been working with OPM to develop their 
strategies?
    Ms. Griffin. In fact, they actually have been working with 
us. And one of my senior advisors behind me, John Benison, can 
certainly testify to the numbers of phone calls and emails he 
gets on a daily basis, and certainly they are increasing as we 
get closer to the due date.
    But I really do believe agencies are engaged in this, and 
engaged because they have to do it and they are being held 
accountable, which is that key piece. And they are in the 
process of developing their goals. They actually get to do that 
based on their own strategic hiring plans that they developed. 
So they have to look at the numbers of people they are going to 
hire over the next couple years and then develop their goals. 
So it is not--we are not forcing a number on them. They have to 
develop what is right for them and then we have to assess 
whether we are going to meet the overall goals by doing that.
    In addition to them developing plans, we have not really 
just said, this is some new initiative and it begins when you 
submit your plan on March 8. We have been saying, it really is 
not a new concept, but it took an Executive Order to once again 
say to you as an agency, we are not kidding about this. We 
really mean you have to do it. So we are counting what agencies 
do during this year. We are not counting as of March 8. This is 
something that we have been counting for many years and we will 
continue to do so.
    We have done a lot of trainings. Folks from Kathy's shop, 
including Kathy herself as well as EEOC, myself, Kareem Dale, 
who is the President's Special Assistant on Disability issues 
at the White House participates in these trainings, 
Rehabilitation Services Administration folks, Dinah Cohen, who 
is Director of the CAP Program, the centralized accommodation 
program with DOD. We have all been working together not only to 
develop the model strategies, but now roll them out in in-
person trainings that we are doing for the Federal agencies. 
John Berry is spearheading a campaign with the Chief Human 
Capital Officers Council meetings every month. In between 
meetings, we are sending reminders to them. So there is a lot 
of activity, a lot of engagement, and we just are delighted to 
see activity in this area.
    Senator Akaka. Thank you. I am glad to hear you mention 
training, because we think that good training is always a 
challenge to changing how the Federal Government does things.
    Ms. Feldblum, as you mentioned in your testimony, each 
year, the EEOC analyzes and reports on agency efforts to 
improve hiring and accommodations for people with targeted 
disabilities. Although the overall trend is negative, I 
understand that certain agencies have had some success in these 
efforts. My question to you is which agencies have been most 
successful and what lessons can we take from them to help other 
agencies?
    Ms. Feldblum. Well, I list in my written testimony 11 
agencies that have reached the target of 2 percent of people 
with targeted disabilities that the EEOC had set a few years 
ago. But to be honest, as I also note in that testimony, they 
tend to be the smaller agencies. Some of them deal with 
disability issues, the Access Board, EEOC itself. So among the 
large agencies, the Department of Treasury actually had some of 
the best numbers.
    And I think, in general, we find that it really does have 
to do with engagement by the supervisors, the line management 
folks, as well as really leadership from the top level. So I 
think we are at a point where we can actually see some 
significant change through a combination of having an Executive 
Order with these actual goals if the agencies feel like there 
will be some repercussions if they do not meet those goals. So 
that is the part about the agency commitment.
    And then, two, if the agencies feel like reaching that goal 
fits into their strategic mission. I mean, in the directive 
that we sent out to them where we asked for information, we say 
that part of their obligation is to tell us how diversity fits 
into their strategic goals. So if you are the Department of 
Housing and Urban Development (HUD), Homeland Security, 
Transportation, I mean, you are worried about housing and 
transportation and homeland security. And part of what we are 
trying to say to them, based on what Congress has said, is 
diversity will help you achieve those strategic goals. We want 
you to think about how that will work.
    So I think, it is not rocket science, but it does require a 
stick.
    Senator Akaka. Thank you.
    This question is for all of the agency witnesses. Your 
agencies provide oversight, guidance and assistance to other 
Federal agencies on hiring, retaining, and accommodating people 
with disabilities. How are you coordinating your efforts to 
improve employment outcomes for people with disabilities? Ms. 
Griffin.
    Ms. Griffin. I can begin by saying that one of the first 
things that we did, and certainly we began long before this, 
but in response to the Executive Order, we actually all 
collaborated on developing the model strategies on recruitment 
and hiring for the Federal agencies. So we all got together and 
talked about it and really actually began that process even 
before there was an Executive Order signed because we were 
hoping to issue guidance to agencies, whether we had an 
Executive Order or not.
    So we really began talking about this quite some time ago 
and trying to strategize about how we actually got agencies to 
do what they were supposed to do and how we actually could help 
them the best. So if they were saying, ``We cannot find people 
with disabilities,'' we said, ``Well, we will find them for 
you.'' We will hand them to you. If they said, ``Well, we want 
people with disabilities to fill these types of jobs,'' then we 
said we will find those types of people for you. If they said, 
``We have trouble retaining people once we hire them,'' we 
said, well, let us talk about that. What is going on at your 
agency? Are you accommodating them? Are you asking them when 
they are leaving why they are leaving? That is probably where 
you should begin.
    So we have really developed a lot of strategies, and 
frankly, every one of our agencies, especially EEOC and Office 
of Disability Employment Policy, long before this point in 
time, have been trying to help agencies do this. I think that 
the differences right now, we actually have them paying 
attention.
    Senator Akaka. Ms. Martinez.
    Ms. Martinez. One of the things I wanted to comment on is 
in addition to helping people with disabilities who come into 
the Federal Government as a person with a disability, we also 
included in the Executive Order a focus on retaining Federal 
workers who become injured on the job, and I think that is a 
very critical part of the Executive Order, because for so long, 
Federal workers have just been disappearing onto the disability 
rolls. So one of the focuses that we have is to encourage the 
use of accommodations to better educate Federal employees 
themselves about when they become injured that they can work. 
And really, again, back to the mantra, the way they know that 
is by seeing somebody else who has a disability who may be 
working alongside them.
    Senator Akaka. Ms. Feldblum.
    Ms. Feldblum. The EEOC's Office of Federal Operations (OFO) 
is the division within the EEOC that is in contact with 
agencies all the time about their equal employment opportunity 
obligations, which include filling out this form once a year, 
but obviously includes doing work all through the year. So the 
EEOC holds meetings four times a year of all the EEO directors, 
and I happen to have attended the one 2 days ago at the 
Commission. I am going to do a shout-out for a woman who works 
at the Office of Federal Operations, and if I get her name 
wrong, I am reserving my right to correct the name for the 
record, but this woman, whose name, I believe, is Lori Grant, 
over 6 months ago said, ``Well, why can we not figure out a way 
to have agencies talk to each other in an easier fashion by 
being able to upload their documents, their best practices, for 
us to be able to give them feedback? '' She did this amazing 
presentation of a web system she has now set up which harnesses 
technology to ensure better communication.
    So there are ways to, in fact, ensure that the information 
gets to folks. Again, there has to be some incentive, not just 
for that Equal Employment Opportunity (EEO) Director to go on 
the webpage and learn something, but for the Deputy Secretary 
of some agency, or for the Secretary to feel that they want to 
listen to that EEO person. So getting the communication out 
there is only half of it. The other half is whether that is 
going to reach a receptive audience by someone who can make a 
difference.
    Senator Akaka. Thank you.
    Ms. Jones, GAO observed that improved coordination could 
help agencies reduce duplication and take advantage of the 
economies of scale. This could better serve people with 
disabilities and make better use of taxpayers' money. Would you 
please elaborate on how this could be done?
    Ms. Jones. Well, in terms of coordination, within agencies, 
the responsibility for assisting people with disabilities is 
often dispersed throughout the agency. So, for example, there 
may be some responsibilities for people with disabilities in 
the hiring office or the EEO-civil rights office or in the 
information technology office. So the idea was that there could 
be better communication and coordination between these offices 
so that they would both know what is going on but also so that 
they could develop a kind of, if you will, overarching program 
to help individuals with disabilities.
    The participants mentioned that sometimes when the 
responsibilities are dispersed across an agency, one group of 
people will think that an issue that affects persons with 
disabilities is being taken care of by another group. With 
better communication and coordination, then the different 
responsible parties would know what each other is doing.
    Senator Akaka. This question is for all of our agency 
witnesses. We have a responsibility to provide our disabled 
veterans with opportunities to continue their service as 
civilian employees. In her testimony, Ms. Martinez mentioned 
the Executive Order on veterans' hiring and the opportunity to 
coordinate these efforts to promote employment for disabled 
veterans. My question is, how are the disability and veterans' 
hiring initiatives working together to serve our disabled 
veterans? Ms. Griffin.
    Ms. Griffin. Mr. Chairman, this is something that we 
actually talk about at OPM all the time. We are responsible for 
implementing the veterans' Executive Order as well as, with my 
colleagues, the disability Executive Order, and we--at every 
training we go to, every time we speak about this, we talk 
about the fact that a veteran with a disability is a person 
with a disability and they, too, can actually have multiple 
vehicles into the Federal Government and, in fact, can use 
Schedule A as an opportunity to get in through the same type of 
expedient process that other people with disabilities use.
    And we are encouraging agencies to actually honor and meet 
the goals of both Executive Orders by, in fact, hiring more 
veterans with disabilities. As a matter of fact, what I tell 
them is that in hiring reform, they have a hiring reform agenda 
they must meet. They have to decrease the amount of time it 
takes to actually hire anybody into the Federal Government. 
Then if they actually hire a veteran with a disability through 
Schedule A, they can meet the goals of the Administration's 
personnel reform agenda.
    For us, it does not really matter how you acquire your 
disability. If you are a veteran with a disability, you have 
right and have other avenues available to you to get into the 
Federal Government and we owe you, I think, as a veteran with a 
disability, a debt and should honor that by offering you 
Federal employment.
    Senator Akaka. Ms. Martinez.
    Ms. Martinez. At the Office of Disability Employment 
Policy, we are working hand-in-hand with our Veterans 
Employment Training Office in the Department of Labor. One of 
the programs that we are actually handing over to them is 
called America's Heroes at Work, where we kind of cross-
pollinate with that office to make sure that veterans with 
disabilities are getting information about what is out there, 
that employers, including Federal employers, are getting 
information about hiring veterans with disabilities, including 
information about traumatic brain injury and different 
disabilities that veterans acquire in the various theaters, and 
we have found that the collaboration has been extremely 
productive.
    Senator Akaka. Ms. Feldblum.
    Ms. Feldblum. So there are two sets of laws here that I 
think we should be focused on in terms of veterans. The first 
is the Uniformed Services Employment and Reemployment Rights 
Act (USERRA). This is a very strong law that requires private 
sector employers to keep open jobs for people who have been 
deployed, and there is an entire section of that law that deals 
with veterans with disabilities. That is a law that is actually 
quite strong on paper, but for it to have teeth, you need good 
enforcement, and I know that is in the enforcement side of the 
Department of Labor, USERRA is one of the things that they are 
very focused on.
    Because again, if you think about a person, a veteran who 
is disabled, if that person can go back to his or her original 
job where the employees actually knows the person, that is the 
best. So we have a law that is quite strong, as I said, and on 
paper, it requires sometimes keeping a job open for 5 years. 
But employers are often not doing that. So that is one piece of 
the puzzle.
    Second, if USERRA is not going to be applied, then I agree 
with Christine Griffin that certainly the Federal Government 
should be a place where veterans should be more than welcome. I 
would say, there, the fact that Congress passed the Americans 
with Disabilities Act Amendments Act of 2008 2 years ago, and 
the EEOC will shortly be issuing regulations on that, I think 
has helped create a renewed focus on disability rights 
generally.
    So, for example, I have given probably four talks to 
Federal personnel folks, including one at Fort Meade, where I 
started with the ADA generally but also moved to some of the 
issues in terms of the Rehabilitation Act, Section 501. So I am 
hoping that this will all help in terms of the focus. But 
again, focus is just the first step and then it is about making 
sure we get results.
    Senator Akaka. Ms. Feldblum, I understand that the EEOC's 
authority to enforce compliance with disability employment laws 
differs within the public and private sector. What can the EEOC 
do to make sure Federal agencies comply, and do you believe you 
need additional authority to do that?
    Ms. Feldblum. Yes. That is a great question. I have to say, 
I have been a civil rights employment lawyer for almost 25 
years and I did not realize the extensive authority that EEOC 
had with regard to the Federal sector until I became a 
Commissioner. So right there, I think we need to increase the 
visibility of that authority.
    But the key difference is that in the private sector, what 
Congress has told us is to essentially facilitate the 
processing of discrimination charges. So people file charges 
with the EEOC. We investigate. If there is reasonable cause, we 
try to conciliate. If that does not work, we litigate. But we 
are in a facilitative role.
    In the Federal sector, what you, Congress, did was give us 
a much more direct enforcement role. That is, you said Federal 
agencies should not be discriminating, should be engaged in 
affirmative action with regard to people with disabilities, and 
you, the EEOC, should actually be enforcing that. Now, you did 
say that, but there were not a lot of, as I say, sticks and 
hammers that came along. You know, we can sort of slap the 
hands of Federal agencies. We can say, oh, bad boy. We can put 
them up on the website that they are not doing well. But that 
is where I say it has to be an ongoing communication between us 
and Congress, because I do not see, personally, the Congress 
handing us authority to fine the Department of Housing and 
Urban Development $100 billion. But I think the more that you 
are asking us, how are agencies doing, and the more that you 
are thinking, how do I reward or, I do not know, penalize, but 
have some repercussions, I think the more that there is good 
communication between us and Congress, the better off we will 
be.
    Senator Akaka. Thank you.
    Ms. Martinez, your testimony on the Workforce Recruitment 
Program was especially interesting to me because I believe the 
Federal Government needs to do more to reach into colleges and 
universities to train students for Federal jobs. Would you 
please tell us more about how this program works and if you 
think it might be a useful model for other student intern 
programs?
    Ms. Martinez. Well, we are very proud of the Workforce 
Recruitment Program. Like I mentioned in my testimony, it has 
been in existence since 1995 and we partner very closely with 
the Department of Defense and they deserve their kudos because 
they hire many, many people from that program.
    Let me start with something that I would like to change 
about it. One of the things about it that is difficult is that 
it is a separate program, so I would like to see people with 
disabilities ultimately be a part of all internship programs 
that are available to young people in the Federal Government. 
But given that has not happened, the WRP has been, I would say, 
very successful in that we do recruit all over the country. I 
think our numbers--we reach out to approximately 250 colleges 
and universities. We are making specific efforts to reach out 
to the Hispanic Colleges and Universities (HCU), and the 
Historically Black Colleges and Universities (HBCU). And 
really, the goal is to get qualified folks with disabilities in 
front of hiring managers and supervisors so they have their 
first opportunity as an intern or as a permanent job in the 
Federal Government.
    Now, you should know also that this database has become so 
popular that private employers are also availing themselves of 
it, and we are very proud of that. But we feel like folks--
there are a lot of qualified--we know that there are a lot of 
qualified students with disabilities who want to work and this 
is one way that they can have an opportunity to become a part 
of the Federal workforce.
    Senator Akaka. Thank you.
    Now, this question is for all of the witnesses. People with 
disabilities tend to leave Federal service at a higher rate 
than other employees. In fact, they are leaving Federal service 
at nearly twice the rate that they are being hired. My question 
is, why is this and what can we do to reverse this trend? Ms. 
Martinez.
    Ms. Martinez. Well, I want to say that I think part of the 
problem is our lack of access to technology. Again, as a person 
with a visual impairment, technology, for the most part, is not 
accessible, and we have our 508 standards, but I think that 
people leave because if they do not have access to information 
which comes over email, Blackberries, other types of 
communication devices, then we cannot do our jobs, basically.
    So what happens is if I do not have the appropriate 
technology to kind of keep me up to date with the changing 
technology in the government, I fall further and further 
behind. So if I am unable to get my emails at home over the 
weekend, I may have missed something very critical which might 
be due on Monday morning. That impacts my job performance, 
which impacts my desire if I have a negative job evaluation, a 
negative job performance, then it becomes very discouraging, 
especially when it is because of the circumstance that I have 
no control over. So I think what happens for many people is 
that the government is not purchasing accessible technology and 
we fall further and further behind and come discouraged.
    Senator Akaka. Thank you. Ms. Griffin.
    Ms. Griffin. I agree with Kathy and I think that is one of 
the factors in this equation when we are looking at why people 
leave in the Federal Government. But I think more troubling to 
me has always been the fact that we do not ask people why they 
are leaving. We do not have data. We only know anecdotally what 
Kathy is saying. We know we have the greatest centralized 
accommodation program in the world, probably, with the CAP 
program over at the Department of Defense, which provides 
technology-based accommodations for all Federal employees, but 
what Kathy is talking about really is not covered sometimes by 
what they do. And so we do have to do a better job as a 
government adhering to Section 508 of the Rehabilitation Act, 
which says, we should not contract with anyone who does not 
provide whatever it is in an accessible format that is updated 
and accessible for everyone.
    But there are a lot of other factors impacting why people 
leave and we do not know exactly what they are. So one of the 
things, the strategies we are using in the model strategies and 
we are going to require agencies to do in compliance with the 
Executive Order is to start asking people who have 
disabilities, when they are leaving the Federal Government, why 
they are leaving and start providing data so that they can 
change what is going on.
    Just to give you an example, the Chief Human Capital 
Officer at the Department of Health and Human Services (HHS) 
just told us in the last couple of weeks that although they are 
actually doing a lot more with regard to hiring people with 
disabilities, she is watching the retention rate and she is 
seeing people still leave. So she has immediately implemented 
something with her hiring managers that says you must start 
collecting data on why people are leaving. But we have to do 
that government-wide because--there are certainly barriers to 
employment or to keeping people employed that we are not 
addressing because we are just not asking the right questions.
    Senator Akaka. Ms. Feldblum.
    Ms. Feldblum. One of the great things I think sometimes 
about hearings is it does force some of us as we are preparing 
to look at some of these questions and figure out where we need 
more information. So a chart that you have, I am sure was 
submitted for the record, and if not, we can, is this trend 
analysis that the Office of Federal Operations at EEOC did of 
individuals with targeted disabilities and it is very 
interesting when you parse down to see where the decreases 
happen and then to ask ourselves, do we know why.
    So, for example, in terms of people who are deaf, in 2000, 
there were about 5,200 deaf people in the Federal Government 
and in 2009, 4,200. So that is a decrease of 1,000 people. Now, 
what is that about? Some of it is probably about not getting 
the accommodations. Is some of it that we have restructured 
jobs that a large number of people who are deaf had? I do not 
know. I mean, I plan to go back and ask my Office of Federal 
Operations, and if we do know, I will submit it for the record, 
and if we do not, I will let you know how we are trying to 
figure out why.
    In comparison to that, people who are blind, there were 
around, 2,600 people in 2000 and about 2,600 in 2009. So not a 
decrease there. But there, what we should focus on is that we 
have 2,600 blind people, that is all, out of a workforce of 2.8 
million?
    The other, I thought, interesting change was people with 
intellectual disabilities at 2,500 in 2009. It is about 1,600 
decrease--2,500 in 2000 and 1,600 in 2009. Again, a thousand 
person decrease, as opposed to people with mental illness, 
5,600 in 2000, 6,800 in 2009, a thousand person increase.
    So to me, for us to be doing our job, we really do need to 
be digging down into these questions. And again, this is why I 
said that this Executive Order in 2010 is very different from 
the Executive Order of 2000. They are similar in that they each 
called for hiring 100,000 people with disabilities. The 
difference is that the 2010 Executive Order really went through 
and said, and there are various things we want you to do, 
including getting training, having goals, and finding out why 
people are leaving.
    Senator Akaka. Thank you. Ms. Jones.
    Ms. Jones. Mr. Chairman, this is not really a question that 
the forum looked at directly, but supporting what Ms. Martinez 
said, participants at the forum did say that sometimes hiring 
managers are reluctant to look at hiring people with 
disabilities because they have a perception or a belief that it 
would be very expensive to provide accommodations for them, 
whereas in reality, there are many times when it is not as 
expensive as they might have imagined, and that is one of the 
reasons why one of the practices that was listed at the forum 
was providing a centralized budget for accommodations for 
people with disabilities. Excuse me.
    Senator Akaka. Thank you.
    Ms. Martinez, the cost of providing accommodations, 
especially personal assistant services, is one issue some 
managers raised as a barrier to hiring people with 
disabilities. In your testimony, you talk about how some 
agencies, including the Department of Labor, include an 
accommodations fund in the general agency budget so that small 
offices do not feel burdened by the cost. This is also one of 
the retention strategies described in the President's Executive 
Order. My question is, how widely is this practice used and why 
is it so important?
    Ms. Martinez. Mr. Chairman, that is an excellent question 
and I will--let me start with the second part, why is it so 
important, and I will have to defer to my colleague, Christine, 
with regard to how widely it is used in the different agencies.
    I can speak specifically for the Department of Labor. We 
started ours in 2010. It is important exactly for the reason 
that you said, which is that it frees up small budgets, or 
different departmental budgets, so that if there is an 
expensive accommodation, it can be absorbed by the pool.
    So, for example, in the Department of Labor, there is a 
certain percentage that is put into our centralized 
accommodations fund so that if there are higher-cost 
accommodations, such as sign language interpreters and personal 
assistant services, those can be absorbed by the entire 
Department.
    And I would say that the savings that the government enjoys 
by hiring folks with disabilities with regard to the fact, A, 
they are not depending on benefits, B, they are paying taxes, 
would completely overshadow the cost of workplace 
accommodations or sign language interpreters.
    Senator Akaka. Ms. Griffin.
    Ms. Griffin. Mr. Chairman, we have not done what I would 
say, a widespread study on this, but just anecdotally talking 
to the different agencies and asking this question, the answer 
is it is not widely used.
    One of the things I learned when I was a Commissioner at 
EEOC, and I am sure they could provide you with statistics on 
this, is that there are lots of cases and complaints filed when 
somebody with a disability who is a Federal employee asks for 
an accommodation and it is not provided, a lot of times because 
the person in charge of their small division, their department, 
thinks that their budget is going to have to cover the cost of 
that and that they cannot afford to do it. The wasted time and 
money on those cases that are clear cut types of cases under 
the Rehabilitation Act really could be used by the agency more 
appropriately in providing the accommodation.
    And so one of the things the EEOC did when I was there and 
continues to do today is not only centralize the budget, but 
centralize even the decision making. So you actually take the 
decision making, a legally-based decision that has to be made 
on whether the person has a disability or not and whether they 
should provide the accommodation or not, take that away from 
the local manager so they are not thinking about it with regard 
to whether the employee deserves it or not or whether they can 
afford it or not.
    And the other important factor that a lot of people do not 
know is that those types of accommodations for personal 
assistance, readers, sign language interpreters, we can 
actually hire them as employees using Schedule A, as well. That 
is a little-known piece of information that we try and remember 
to tell people. You can actually hire all of these folks the 
same way you can hire people with disabilities, expediently, so 
you get them the accommodations they need, and folks can hire, 
let us say, a sign language interpreter to do interpreter 
services for all the deaf employees as well as for meetings and 
meetings with the outside, stakeholders and other folks who may 
include people who are deaf. When they are not doing those 
duties, they actually can be assigned to do other duties within 
the agency. So that is a key piece of information that I think 
agencies do not know enough about or pay enough attention to.
    Senator Akaka. Ms. Griffin, I have been working with OPM to 
increase the use of telework in the Federal Government and my 
Telework Enhancement Act was signed into law last year. A 
number of the witnesses today have mentioned that telework and 
other workplace flexibilities can play a role in attracting and 
retaining people with disabilities. My question to you is how 
is OPM encouraging agencies to use telework and other 
flexibilities as a tool for people with disabilities?
    Ms. Griffin. Mr. Chairman, I think you know how strongly 
Director Berry at OPM feels about telework as an important tool 
for all Federal employees, especially in times of, let us say, 
snow closures and other events that happen within the Federal 
Government. So it is key that we have telework as a significant 
tool for all of our Federal workforce.
    But more importantly for people with disabilities, this 
will give lots of people with disabilities who, for whatever 
reason, cannot utilize transportation, do not have access to 
transportation, to be very productive citizens and do the work 
right from their home. We demonstrate that with lots of people 
now every single day, and as you know because of your Telework 
Act, there is training about that and the culture change that 
is taking place in the Federal Government and increasing 
telework every day.
    I think we are celebrating Telework Week this week and we 
have lots of people at OPM who have been encouraged, as I think 
other Federal agency heads have done, to telework, and we have 
not only employees with disabilities who are teleworking as 
employees for OPM this week but lots of others, as well.
    This is a critical tool. We have, again--I cannot say 
enough about the Department of Defense CAP program, the 
computer and electronic accommodations program that provides us 
with the electronically-based accommodations for all of the 
Federal Government. They will, in a case where it is a 
reasonable accommodation for someone with a disability to 
telework, they will actually provide the equipment that is 
needed for the person to do that.
    So we have--we have no excuses and no reasons not to do 
this. This is a wonderful tool that allows people to be 
productive.
    Senator Akaka. Thank you very much.
    I want to thank you for your responses. You have been 
generous in your time. So this is my final question for all of 
the witnesses. The President's Executive Order is moving us 
forward and bringing renewed attention to these issues across 
government. In your opinion, what is the most important thing 
the Federal Government could do to improve employment 
opportunities for people with disabilities, and what can 
Congress do to assist in these efforts?
    Ms. Griffin. I will begin.
    Senator Akaka. Ms. Griffin.
    Ms. Griffin. The most important thing they can do--we 
cannot say this enough--is hire them, hire them, hire them. We 
have done a really good job, I think, not perfect, but a good 
job in this country of educating people with disabilities. We 
have people that have all the degrees, advanced degrees, the 
education, the training, the skills, the abilities to do all of 
the jobs that we have in the Federal Government. It is not a 
matter of we cannot find them. It is a matter of we currently 
are not hiring them. We have to hire more people with 
disabilities. That is the most important thing that we can do.
    What you can do in Congress is to help us hold the agencies 
accountable. The President talked a lot about this when he 
signed the Executive Order, when he said the difference between 
this one and the one that President Clinton signed was the 
accountability piece. He told us at OPM to make sure that we 
put up on a website the progress that agencies were making so 
that all could see and it would be transparent to everyone 
whether we were meeting our goals or not.
    But I think, more importantly, Congress can play a role in 
helping us hold agencies accountable and asking agencies that 
do not meet their goals what is going on. Why not? Ask OPM why 
agencies are not doing a good job of meeting their goals. I 
think that would be very helpful.
    Senator Akaka. Ms. Martinez.
    Ms. Martinez. Well, Mr. Chairman, I know many talented 
people from the State of Hawaii who would love to work for you, 
and I think that one thing in addition to holding folks 
accountable that you as leaders can do is to hire folks with 
disabilities. As you are role models, so follow your troops. 
And I think that is one very tangible thing you can do.
    I also think we have to recognize that the Federal 
workforce, like our population as a whole, is changing, and 
Federal workers are aging on the job. One thing that we will 
have to remember while implementing this Executive Order is 
that many of the people who will be availing themselves of the 
accommodations provided for those of us with disabilities are 
aging Federal workers, and I think it is important to just 
acknowledge that our population is aging and the Federal 
workforce is aging. So I think there will even need to be more 
of an understanding about technology, about buying accessible 
technology and usable technology, and also about the whole 
accommodations process. Thank you for the opportunity.
    Senator Akaka. Thank you. Ms. Feldblum.
    Ms. Feldblum. OK. So there really is not a telepathic bond 
between Deputy Director Griffin and me, but I did write down in 
response to your question, the most important thing, in a 
sense, has been done, which is require the agencies to set 
targeted goals, and therefore, the most important thing 
Congress could do is to figure out ways to convey to the 
agencies that it is watching this Executive Order, as well, and 
that it will use whatever capacities it has through various 
authorizing and appropriating Committees to ask for 
accountability.
    So given that is exactly the same answer that you just 
heard, I want to add one other thing which goes to your 
question before about workplace flexibility, including 
telework. For 7 years before I was named to the Commission, I 
started and then co-directed an enterprise called Workplace 
Flexibility 2010, and I, in fact, worked with various folks on 
your staff. I think Thomas Richards was stolen by OPM, maybe, 
away from you, but he was someone we worked with.
    I think the main thing we found there is that you need the 
right actors involved, which includes Congress, executive 
agencies, and the workforce, but as well, the private sector, 
and that means the private for-profit and nonprofit sector, in 
order to start changing the norm of how the workplace is set 
up, to start changing the expectations of how you are going to 
judge whether someone is a good employee. And it is not going 
to be because they showed up X-amount of time, but instead it 
is about what did they produce. If we can move our entire 
workforce model more to an outcome evaluative manner--that we 
are evaluating you and your outcomes and that we actually teach 
our managers how to do that, both inside the public sector as 
well as private--that will have significant ripple effects for 
lots of people.
    Senator Akaka. Thank you. Ms. Jones.
    Ms. Jones. Thank you, Mr. Chairman. Let me start with your 
second question first. The participants at the forum recognize 
that there are laws like the Rehabilitation Act and the 
Americans with Disabilities Act and regulations like the 
Management Directive 715 and also the Executive Order of July 
2010, so the participants did not state that there were actions 
that Congress needed to undertake. Rather, they recognized the 
value of the existing laws and regulations.
    With respect to your first question, in terms of improving 
the employment of individuals with disabilities in the Federal 
workforce, what the participants agreed on is that the eight 
practices, which were identified in the forum are key and that 
they need to be implemented together in order to reinforce each 
other. They were very clear that the practices would not work 
in isolation, so that agencies need to be encouraged to 
undertake all of them.
    Senator Akaka. Thank you very much, all of you, for your 
thoughts and your recommendations. Your work reminds us all of 
the importance of getting past stereotypes so we focus on 
workers' abilities and qualifications rather than their 
disabilities. I believe that with your leadership, we will see 
an improvement in employment outcomes for people with 
disabilities in the Federal Government. I encourage all of you 
to continue working together and with this Subcommittee, also, 
on this issue. We certainly want to make some improvements 
here.
    The hearing record will remain open for 1 week for Members 
to submit additional statements or questions. And again, thank 
you all for your time and your responses.
    This hearing is now adjourned.
    [Whereupon, at 4:01 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] 66621.001

[GRAPHIC] [TIFF OMITTED] 66621.002

[GRAPHIC] [TIFF OMITTED] 66621.003

[GRAPHIC] [TIFF OMITTED] 66621.004

[GRAPHIC] [TIFF OMITTED] 66621.005

[GRAPHIC] [TIFF OMITTED] 66621.006

[GRAPHIC] [TIFF OMITTED] 66621.007

[GRAPHIC] [TIFF OMITTED] 66621.008

[GRAPHIC] [TIFF OMITTED] 66621.009

[GRAPHIC] [TIFF OMITTED] 66621.010

[GRAPHIC] [TIFF OMITTED] 66621.011

[GRAPHIC] [TIFF OMITTED] 66621.012

[GRAPHIC] [TIFF OMITTED] 66621.013

[GRAPHIC] [TIFF OMITTED] 66621.014

[GRAPHIC] [TIFF OMITTED] 66621.015

[GRAPHIC] [TIFF OMITTED] 66621.016

[GRAPHIC] [TIFF OMITTED] 66621.017

[GRAPHIC] [TIFF OMITTED] 66621.018

[GRAPHIC] [TIFF OMITTED] 66621.019

[GRAPHIC] [TIFF OMITTED] 66621.020

[GRAPHIC] [TIFF OMITTED] 66621.021

[GRAPHIC] [TIFF OMITTED] 66621.022

[GRAPHIC] [TIFF OMITTED] 66621.023

[GRAPHIC] [TIFF OMITTED] 66621.024

[GRAPHIC] [TIFF OMITTED] 66621.025

[GRAPHIC] [TIFF OMITTED] 66621.026

[GRAPHIC] [TIFF OMITTED] 66621.027

[GRAPHIC] [TIFF OMITTED] 66621.028

[GRAPHIC] [TIFF OMITTED] 66621.029

[GRAPHIC] [TIFF OMITTED] 66621.030

[GRAPHIC] [TIFF OMITTED] 66621.031

[GRAPHIC] [TIFF OMITTED] 66621.032

[GRAPHIC] [TIFF OMITTED] 66621.033

[GRAPHIC] [TIFF OMITTED] 66621.034

[GRAPHIC] [TIFF OMITTED] 66621.035

[GRAPHIC] [TIFF OMITTED] 66621.036

[GRAPHIC] [TIFF OMITTED] 66621.037

[GRAPHIC] [TIFF OMITTED] 66621.038

[GRAPHIC] [TIFF OMITTED] 66621.039

[GRAPHIC] [TIFF OMITTED] 66621.040

[GRAPHIC] [TIFF OMITTED] 66621.041

[GRAPHIC] [TIFF OMITTED] 66621.042

[GRAPHIC] [TIFF OMITTED] 66621.043

[GRAPHIC] [TIFF OMITTED] 66621.044

[GRAPHIC] [TIFF OMITTED] 66621.045

[GRAPHIC] [TIFF OMITTED] 66621.046

[GRAPHIC] [TIFF OMITTED] 66621.047

[GRAPHIC] [TIFF OMITTED] 66621.048

[GRAPHIC] [TIFF OMITTED] 66621.049

[GRAPHIC] [TIFF OMITTED] 66621.050

[GRAPHIC] [TIFF OMITTED] 66621.051

[GRAPHIC] [TIFF OMITTED] 66621.052

[GRAPHIC] [TIFF OMITTED] 66621.053

[GRAPHIC] [TIFF OMITTED] 66621.054

[GRAPHIC] [TIFF OMITTED] 66621.055

[GRAPHIC] [TIFF OMITTED] 66621.056

[GRAPHIC] [TIFF OMITTED] 66621.057

[GRAPHIC] [TIFF OMITTED] 66621.058

[GRAPHIC] [TIFF OMITTED] 66621.059

[GRAPHIC] [TIFF OMITTED] 66621.060

[GRAPHIC] [TIFF OMITTED] 66621.061

[GRAPHIC] [TIFF OMITTED] 66621.062

[GRAPHIC] [TIFF OMITTED] 66621.063

[GRAPHIC] [TIFF OMITTED] 66621.064

[GRAPHIC] [TIFF OMITTED] 66621.065

[GRAPHIC] [TIFF OMITTED] 66621.066

[GRAPHIC] [TIFF OMITTED] 66621.067

[GRAPHIC] [TIFF OMITTED] 66621.068

[GRAPHIC] [TIFF OMITTED] 66621.069

[GRAPHIC] [TIFF OMITTED] 66621.070

[GRAPHIC] [TIFF OMITTED] 66621.071

[GRAPHIC] [TIFF OMITTED] 66621.072

[GRAPHIC] [TIFF OMITTED] 66621.073

[GRAPHIC] [TIFF OMITTED] 66621.074

[GRAPHIC] [TIFF OMITTED] 66621.075

[GRAPHIC] [TIFF OMITTED] 66621.076

                                 <all>

</pre></body></html>
